Supreme Court. U.S.
FILED

OCT 0 7 2021
No,

OFFICE OF THE CLERK

AC*

IN THE SUPERME COURT OF THE UNITED STATES

David K. Horsley - Petitioner
VS.
State Of Ohio - Respondent

On a Petition for a Writ of Certiorari to
.

t

the Court of Appeals of Ohio, Fourth Appellate District, Pickaway County.

PETITION FOR WRIT OF CERTIORARI

David K. Horsley
500 Engle Dr. Apt 537,
McArthur, Ohio 45651
(740) 357-8041
Pro Se, Petitioner

1

Question Presented
To clarify if what the United States Court held in Garza v. Idaho, 586
U.S. 10 (2019) applies to Ohio App. R. 26 (B)(1) which requires a defendant
to prove ineffective assistance of counsel to reopen an appeal that was
originally denied based on an appeal waiver.
A state appellate procedure is in conflict with the Court precedent
set in Garza v. Idaho, 586 U.S._(2019).

11

Table of Contents
Questions Presented

i

Table of Authorities

IV

Petition for a Writ of Certiorari

1

Opinion And Order Below

1

Jurisdiction

1

Constitutional Provisions Involved

1

Statement Of the Case

2

Reasons for Granting the Writ

6

1.

Ohio App. R. 26 (B) is in Conflict with this Court’s Ruling in
Garza u. Idaho, 586 U.S. 10 (2019).

2.

In Considering the Question Presented, We Must Also Consider
if Allowing a Defendant to be Denied an Appeal at the
Discretion of the Appellate Court is a Procedure that Denies
Due Process.

iii
Appendix A
Decision, Court of Appeals, 4th Appellate District, State of Ohio v. David K. Horsley,
Case No. 99CA33, (Jun 2, 2021).
Appendix B
Decision. The Supreme Court for the State of Ohio, Case No. 2021-0hio-0750,
Decision No. 2021-Ohio-2615, (August 3, 2021).
Appendix C
Notice of Appeal Withdrawn, State of Ohio, (November 24, 1999).
Appendix D
Entry dismissing appeal, State of Ohio v. David K. Horsley (December 8, 1999).
Appendix E
Notice of Appearance, Stat of Ohio v. David K. Horsley, (August 10, 1999).
Appendix F
Motion to Withdraw as Counsel, State of Ohio v. David K. Horsley (November 15,
1999).
Appendix G
Notice of Appeal, State of Ohio v. David K. Horsley (November 15, 1999).
Appendix H
Motion to Disqualify, State of Ohio v. David K. Horsley (September 7, 1999).
Appendix I
Motion for Reconsideration of Appeal. (April 28, 2021)
Appendix J
Notice of Appeal. (November 15, 1999)

IV

TABLE OF AUTHORITIES

Cases
Aetna Life Ins. Co. v. Lavoie, 475 U.S. 813 (1986)

10

Anders v. California, 386 U.S. 7387 (1967)

3,5,7,15

Garza v, Idaho, 586 U.S._(2019)

4,5,8,9,15,17

Pension, v Ohio, 488 U.S. 75, (1988)

3,6,7

Roe v. Flores-Ortega, 528 U.S. 470 (2000)

4

Strickland v. Washington, 466 U.S. 668 (1984)

15

Withrow v. Larkin, 421 U.S. 35, (1975)

15

Constitutional Provisions
U.S. Const. Amend. VI

9

U.S. Const. Amend. XIV

9

Statutes
28 U.S.C. 1257(a)............

1

Ohio App. R. 26 (B)..........

4,5,6,9,15

O.R.C. 341.14...................

12

O.R.C. 341.23 (A).............

12

O.R.C. 2743.48 (A)(2)......

14,15

O.R.C. 2903.13 (C)(5)......

2

O.R.C. 2935.03 (B)(3)(a)(i)

13

Other Authorities
“Adams’ Argument for the Defense: 3—4 December 1770,”
Founders Online, National Archives,
https://founders.archives.gov/documents/Adams/05-03-02-0001-0004-0016.

10

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner, David K. Horsley, respectfully petitions this Court for a writ of certiorari to
review the judgment of the 4th District Court of Appeals in this case.

OPINION AND ORDER BELOW
The opinion of the Supreme Court of the State of Ohio, Case no. 2021-0750, Decision entry
2021-Ohio-2615, (Pet. App. 2) and the lower court opinion of the 4th District Court of
Appeals for the State of Ohio, Case no. 99C33, (Pet. App. 1) are both published on the Ohio
Supreme Court website as required by Rep.Op.R. 3.2 dated July 1, 2012.

JURISDICTION
The judgment of the Supreme Court of the State of Ohio entered on August 3, 2021.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a)

CONSTITUTIONAL PROVISIONS INVOLVED
The Sixth Amendment to the U.S. Constitution provides that “In all criminal prosecutions,
the accused shall enjoy the right... to have the assistance of counsel for his defense.”
The Fourteenth Amendment to the U.S. Constitution provides that “nor shall any State
deprive any person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner, David K. Horsley, respectfully petitions this Court for a writ of certiorari to
review the judgment of the 4th District Court of Appeals in this case.

OPINION AND ORDER BELOW
The opinion of the Supreme Court of the State of Ohio, Case no. 2021-0750, Decision entry
2021-Ohio-2615, (Pet. App. 2) and the lower court opinion of the 4th District Court of
Appeals for the State of Ohio, Case no. 99C33, (Pet. App. 1) are both published on the Ohio
Supreme Court website as required by Rep.Op.R. 3.2 dated July 1, 2012.

JURISDICTION
The judgment of the Supreme Court of the State of Ohio entered on August 3, 2021.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a)

CONSTITUTIONAL PROVISIONS INVOLVED
The Sixth Amendment to the U.S. Constitution provides that “In all criminal prosecutions,
the accused shall enjoy the right... to have the assistance of counsel for his defense.”
The Fourteenth Amendment to the U.S. Constitution provides that “nor shall any State
deprive any person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.

2

STATEMENT OF THE CASE

In April of 1999,1 appeared 2 hours late for court. I was taken into custody
and told if I did not sign a plea agreement the court could take my ex gfs home as it
was used to secure my appearance. I immediately signed the plea agreement. The
attorney that was assigned to my court case was Attorney William Archer. I plead
guilty to O.R.C. 2903.13(C)(5), misdemeanor charge of Assault.

In exchange, the

prosecutor dropped a felony failure to appear charge. The assault is a felony 4
because the alleged victim was a police officer. He is both alleged victim and
investigator. No in car videos were turned over by the prosecutor’s office in reply to
discovery.
I was ordered to go to a Community Based Correctional Facility and was
denied entry because I refused to admit guilt. This generated another court date at
which I learned my attorney had been hired as an assistant prosecuting attorney for
the same prosecutors office that was prosecuting my court case. I was represented
by Attorney McHenry at that hearing. He was just a fill in attorney and the trial
court assigned Attorney Tracy Leonard the next day on August 9, 1999. (App. E)
Attorney Leonard then filed a motion to disqualify the prosecutor’s office showing
nonfrivolous arguable merits on the record.(App H) I requested a withdraw of plea
hearing as Attorney Archer was a party in the charge of felony failure to appear and
as such could not represent me as counsel when the plea was signed. He was also

3

seeking a position with the same prosecutors office that prosecuted my case while
handling my case at the same time.
The trial court ruled against me and I requested an appeal. Attorney
Leonard filed the appropriate paperwork to include Notice of Appeal which shows
my desire to appeal. (App J) One month after she had filed the appeal paperwork I
was contacted in prison by a woman on the phone whom I was told was my
attorney. She asked if I wanted an appeal and I said no, hung up and walked away.
The call could not have lasted a minute. There was no explanation of the pros and
cons of withdrawing my appeal. I had not spoken to her since the withdraw of plea
hearing at the beginning of October.
In addition, the motion to withdraw my appeal was not signed by Attorney
Leonard (App D), and she had already requested to be removed and asked for an
appellant attorney assigned to be assigned to my case. (App F) The motion to waive
my appeal was signed by Attorney McHenry. He was not my attorney and never
spoke to me about an appeal and filed no Anders brief with the appeal as required
by Anders v. California, 386 U.S. 738, 744 (1967); Pension, v Ohio, 488 U.S. 75, 79-85
(1988). (App D)
The ruling in Anders and Pension applies to both defense counsel and the appellate
court. They are required to review the record for nonfrivolous arguable merits that can be
raised on appeal. The record shows nonfrivolous arguable merits on the record as
contained in Attorney Leonard’s motion to recuse the Pickaway County Prosecutors Office,
due to hiring the defense attorney that the trial court had assigned to represent me in this
court case, which raises important 6th and 14th Amendment questions. (App H)

4

I served the stated sentence of 270 days in prison.
I maintained my innocence and was constantly looking for a way to overturn
my conviction that was not subject to discretion as the 4th Appellate district caprice
is to cover up and protect both police and attorneys from any legal liability for
misconduct. Id., See section 2. I finally figured out that I would have to do it myself
and asked myself how to accomplish this task and it was by attacking the waiver to
appeal which I then googled and which brought me to the ruling in Garza v, Idaho,
586 U.S.

(2019). I then immediately filed a motion to reconsider my appeal. (App

I) It is based on the ruling in Garza that states,
“In Roe v. Flores-Ortega, 528 U. S. 470 (2000), this
Court held that when an attorney’s deficient performance
costs a defendant an appeal that the defendant would
have otherwise pursued, prejudice to the defendant
should be presumed “with no further showing from the
defendant of the merits of his underlying claims.” Id., at
484.
My request to reopen my appeal was denied by the 4th Appellate District of
Ohio citing Ohio App. R. 26 (B)(1) stating that I had failed to show ineffective
assistance of counsel. When we review the record we see that the motion to
withdraw did not include an Anders brief. (App D) That is deficient performance of
counsel that resulted in my being denied an appeal which my Notice of Appeal
shows that I wanted. (App J) Had the appellate court reviewed the case, as it should
have, it would have spotted the lack of an Anders brief with my motion to withdraw
my plea. That and reading what this Court held in Garza v. Idaho should have
resulted in me being granted an appeal and having counsel assigned. But that isn’t

5

what happened. They did not apply the Anders review standard for reviewing
reopening of an appeal. A review was not performed in 1999 and it was not done in
2021.
The 4th District Court of Appeals ruling states that counsel did a fine job and
makes no mention of counsel’s failure to submit an Anders brief which shows
deficient performance on its face. In Garza, this court held that when an attorney’s
deficient performance costs a defendant an appeal he otherwise would have taken
then he gets an appeal and that I need show nothing further. Ohio App. R. 26 (B)(1)
requires I show ineffective assistance of counsel which is in direct conflict with what
this Court held in Garza v. Idaho, 586 U.S. 10 (2019).
“Instead, we reaffirm that, “when counsel’s constitutionally
deficient performance deprives a defendant of an appeal that
he otherwise would have taken, the defendant has made out a
successful ineffective assistance of counsel claim entitling him
to an appeal,” with no need for a “further showing” of his
claims’ merit, ibid., regardless of whether the defendant has
signed an appeal waiver.” Garza v, Idaho, 586 U.S. 10 (2019

In addition, we see that the attorney who signed the motion to withdraw my
appeal was not my assigned counsel. Attorney Tracey Leonard was assigned on
August 10, 1999, (App E) and then filed a motion to be removed and new appellate
counsel assigned. (App F) Attorney McHenry is noted in an entry of continuance as
he stood in for my attorney who could not represent me as he had been hired as
assistant prosecutor in the same court that he was representing me in. (App G) I
had no conversation with Attorney McHenry after the August 18, 1999, court date

6

and certainly not about the pros and cons of pursuing my appeal while I was
incarcerated.
The issue is that I, as a pro se litigant, only need request my appeal to be
reopened to trigger a review as required in both Anders v. California, 386 U.S. 738, 744
(1967) and Pension. u Ohio, 488 U.S. 75, 79-85 (1988). The appellate court has the same
requirements under Anders and Pension as the defense counsel to review the case for
nonfrivolous arguable merits to be raised on appeal. Records show no transcript of the
withdrawal of plea hearing were created so we know that no review was performed by the
appellate court or the Ohio Supreme Court. The records also show nonfrivolous arguable
merits on appeal contained in the motion to recuse the prosecutor’s office submitted by
Attorney Leonard. (App H) I appealed to the Ohio Supreme Court which refused
jurisdiction.
I believe all I, as a pro se litigant, needed to do is file a request to reconsider
my appeal to trigger a review for nonfrivolous arguable merits. While the record is
incomplete it does show a nonfrivolous arguable merit on the record.
For the reasons stated above, I request that the decision issued by the Court
of Appeals of Ohio, 4th Appellate District, Pickaway County, be reversed.

REASONS FOR GRANTING THE PETITION

1.

This Court’s Ruling in Garza v. Idaho, 586 U.S. 10 (2019), is in
Conflict with Ohio App. R. 26 (B).

7

Ohio App. R. 26 (B) requires a person prove ineffective assistance of counsel to
reopen an appeal. I must show deficient performance of appellate counsel and how I
was prejudiced by that deficiency. However, this Court held in Garza v. Idaho, 586
U.S.__, 10 (2019) that when counsels deficient performance denies an appeal that
the defendant would have otherwise taken then they get an appeal and need not
show anything further.
The State of Ohio requires a pro se litigant to prove these things in Ohio App.
R. 26 (B) without acknowledging the rulings in Anders v. California, 386 U.S. 738,
744 (1967) and Pension v. Ohio, 488 U.S. 75, 79-85 (1988). In these Court rulings the
appellate court must review the case for merits rather than placing that burden on a
pro se litigant seeking to reopen an appeal that was denied based on a waiver of
appeal. The Anders requirement to conduct an examination of the record falls upon
the appellate court and not the pro se litigant as Ohio App. R. 26 (B) requires.
This shows that Ohio App. R. 26 (B) is in conflict with what this Court held in
Anders v. California, 386 U.S. 738, 744 (1967) and Pension, v. Ohio, 488 U.S. 75, 7985 (1988) as the State of Ohio imposes the review for merits onto the pro se litigant
rather than on the appellate court as required by Anders and Pension.
Defense counsel did not include an Anders brief when he submitted the motion
to withdraw my request for an appeal and that shows deficient performance of
counsel. (App C) I have a right to effective assistance of counsel as this Court held in
Strickland v Washington, 466 U.S. 668. And the failure to submit an Anders brief is
deficient performance on its face. I have a right to appellate review of my case for

8

nonfrivolous arguable merits to raise on appeal. Defense counsel failed to abide by
these procedural safeguards in failing to file an Anders brief which resulted in me
being denied an appeal. The 4th District Court of Appeals in granting my motion to
withdraw from my appeal also failed to list any nonfrivolous arguable merits to be
found in the record. (App D) There are nonfrivolous arguable merits to the record as
the motion to recuse the prosecutor’s office shows. (App H)
I have failed to meet the requirements, in Ohio App. R. 26 (B), to the appellate
courts satisfaction and my appeal has been denied in a ruling based on failing to
show ineffective assistance of counsel and how I was prejudiced by that deficiency.
But if we impose the Anders brief requirement, that applies to both the
defense counsel and the appellate court, we see that I need only request to reopen my
appeal for it to trigger appellate review as the appellate court cannot proceed to rule
on the matter until the Anders review is completed. No transcript of the withdraw of
plea hearing was ever created for review so we are certain no proper review has been
completed. In addition, the motion to recuse raises important 6th and 14th
Amendment issues and the result is that I have denied due process by being denied
effective assistance of counsel.
So we see an entirely different outcome by applying the Anders review
requirement to the procedure used by the State of Ohio to reopen an appeal. This
shows Ohio App. R. 26 (B) to be deficient as it fails to require an Anders review by
the appellate court in considering to reopen an appeal that was denied based on an
appeal waiver.

9

Defense counsels failure to file an Anders brief along with my motion to waive
my right to an appeal shows deficient performance of counsel on its face. (App C)
Therefore, what this Court held in Garza u, Idaho, 586 U.S. 10 (2019) applies,
“Instead, we reaffirm that, “when counsel’s constitutionally deficient
performance deprives a defendant of an appeal that he otherwise would
have taken, the defendant has made out a successful ineffective
assistance of counsel claim entitling him to an appeal,” with no need for
a “further showing” of his claims’ merit, ibid., regardless of whether the
defendant has signed an appeal waiver.” Garza v, Idaho, 586 U.S. 10
(2019)

Ohio App. R. 26 (B) denies due process as it imposes the review requirements
onto a defendant when the rulings in Anders and Pension specifically place it upon
defense counsel and the appellate court.
The State of Ohio has an estimated 11,500,000 people whose appellate rights
are in jeopardy right now. I believe the Court must rule on this issue as it affects a
large number of people who are at risk being denied their 14th Amendment right to
Due Process, an appeal, by way of a denial of their 6th Amendment right to effective
assistance of counsel.

2.

In Considering the Question Presented, We Must Also Consider
if Allowing a Defendant to be Denied an Appeal at the
Discretion of the Appellate Court is a Procedure that Denies
Due Process.

10
Ohio App. R. 26 (B) fails to permit the examination of the procedures used to review
the request to reopen the appeal in a due process context. We should not only look at it in a
6th Amendment of the United States context but also in a 14th Amendment of the United
States context in considering if a person should be granted a request to reopen an appeal.
In considering any 14th Amendment implications we must ask if there are inherent
prejudices in a procedure that allows a single appellate judge to decide if an appeal is
reopened? Circumstances dictate that there are inherent prejudices in imposing the
requirements of Strickland on pros se litigants. Appellate judges being able to exercise
their discretion on the matter is a procedure that denies due process. The test in Aetna,
475 U.S. at 825 (quoting Ward, 409 U.S. at 60,)
“is whether the ... situation is one ‘which would offer a possible
temptation to the average man as a judge to forget the burden
of proof required to convict the defendant, or which might lead
him not to hold the balance nice, clear, and true between the
state and the accused . . . .’ Aetna, 475 U.S. at 825 (quoting
Ward, 409 U.S. at 60)”

Under the principles laid out in Aetna and Ward, we see that actual influence is not
necessary as it only mattered “whether the situation would offer a possible temptation to the
average ... judge to...forget the burden of proof necessary to obtain a conviction...” So proof
is not required when the procedure itself has the potential to harm the innocent.
Then we need to apply the principle of Blackstone’s ratio. John Adams said it best.
John Adams in his opening arguments dated December 3-4, 1770,

“We find, in the rules laid down by the greatest English Judges, who have
been the brightest of mankind; We are to look upon it as more beneficial, that
many guilty persons should escape unpunished, than one innocent person
should suffer. The reason is, because it’s of more importance to community,
that innocence should be protected, than it is, that guilt should be
punished;...”

11

It is clearly established principle, that this nation was founded upon, that the
innocent must be protected in the application of law.
Does imposing the legal requirements of Strickland u. Washington 466 U.S. 668,
669, create prejudice against a wronged defendant?
Imposing this procedure on a pro se litigant provides a means of hiding some
malfeasance or gross negligence on part of the police or lawyers involved in a specific case.
The 4th District Appellate Court in the State of Ohio is made up of rural counties
with a small number of lawyers in each county with many doing double duty in other
counties. The “temptation” to protect ones colleagues, who these attorneys have formed
lifelong working relationships with, creates an inherent prejudice against anyone who
suggests they may have committed any form of misconduct in conflict with the standards
set by Aetna and Ward. They are lawyers and their instincts are to protect their friends
and family from any legal liability associated with performing their jobs to the point that
they may “forget the burden of proof necessary to convict a defendant.” Pp. 2-3 So allowing
the appellate court to decide who can reopen an appeal and who cannot reopen an appeal is
inherently prejudicial to having a fair and impartial review under the requirements of
Strickland v. Washington 466 U.S. at 669.
This is specifically concerning, as if appellate judges were to agree on a specific
unconstitutional caprice that is followed district wide, such as to protect a police officer who
arrests and assaults those that they feel should be arrested and assaulted in spite of
constitutional protections, as that puts the entire community in jeopardy. Then the judges
unconstitutional caprice can be shielded by their own discretion by being the one to decide
of a person ever gets an appeal or not. That procedure represents a conflict within itself.

12
That caprice appears in this case to be anyone the police officer says committed a domestic
assault without any evidence to support that claim or investigation into actual fact in a
court of law thus denying due process. And that decision fell onto a single appellate judge
who ruled without a review of the facts or a hearing on the matter. That is the prejudice I
face when seeking to reopen my appeal. A prejudice that is inherent to allowing a judge to
decide his friends fate in deciding whether to rule in favor of me reopening my appeal. That
discretion has the potential to cover up a lot of harm being caused a community by
unscrupulous individuals seeking to make more arrests solely for the money it brings into
rural courts and to law enforcement as authorized by Ohio’s laws and procedures. This
poses another question.
Are there inherent prejudices in the State of Ohio’s laws and procedures?
The State of Ohio has created inherent prejudices against me in this court case
which start from the point of arrest and extend into the appellate court. It has provided a
motive and means for the police to make false arrests as arrests in these situations have
been financially incentivized by the State of Ohio.
The motive being putting people in jail for the extra money the jail can bill the city
for when they exceed their allotment of beds as county commissioners are allowed to bill
municipalities on a per bed basis. O.R.C. Section 341.23 (A), allows county commissioners to
enter into contracts for holding prisoners with municipalities and O.R.C. 341.14, requires
payment for the incarceration of each of those prisoners in advance. So if a person is taken
to jail then the jail gets paid immediately.
In Ohio, the fees a jail can bill a city for holding a single inmate can range from $80$100 a day or more. This means the more people taken to jail automatically increases the
amount of money the jail takes in. In addition, lawyers handling indigent court cases are

13
paid $400 a court case which is paid on a per case basis with no oversite into their actions. 5
extra cases a week can generate over $100,000 a year in additional income to both the jail
and the group of attorneys handling indigent court cases.
The State of Ohio could fund and build jails based on population rather than actual
weekly costs which can be manipulative and as such creates a situation in conflict with the
principles on which this nation is founded. Defense attorneys handling indigent cases can
be paid on a contractual basis instead of on a per case basis as being paid on a per case
basis is a procedure that denies due process.
The means of the “motive and means” is found in Ohio’s Warrantless Arrest law
O.R.C. 2935.03 (B)(3)(a)(i), that permits arrest based solely on a complaint. No evidence to
support a complaint is required to make that arrest and a state constitutional amendment
denies a defendant discovery in seeing if what was contained in the complaint is even
considered a crime.
O.R.C. 2935.03 (B)(3)(a)(i) states,

(3)(a) For purposes of division (B)(1) of this section, a peace officer described
in division (A) of this section has reasonable grounds to believe that the
offense of domestic violence or the offense of violating a protection order has
been committed and reasonable cause to believe that a particular person is
guilty of committing the offense if any of the following occurs:
(i) A person executes a written statement alleging that the person in
question has committed the offense of domestic violence or...”

Police and lawyers are exploiting this loophole for profit. That is a reason why jails
are all overcrowded in Ohio. It is the reason I was placed under arrest that night instead of
being let go. It is common practice now to violate the accused in certain situations in Ohio.

14
Those situations are listed in Ohio’s Warrantless Arrest law O.R.C. 2935.03. It is profit
taking from false arrest. Police now write as many tickets as possible, make as many
arrests as possible and do so without being required to show any evidence in support of a
complaint or fear of any lawyer representing the indigent bringing the issue of false arrest,
based on a lack of evidence, before the trial court because they make more money from
those extra arrests as well.
These arrests are made without any evidence to support a complaint and results in a
family being torn apart at the first sign of any relationship problems for the money it
makes law enforcement and defense attorneys. It results in a person not only being charged
with a crime but a crime that is categorized as a “violent crime” resulting in restraining
orders preventing a law abiding couple from uniting and a loss of second amendment rights
as it is considered a “crime of violence”. An attack on the family unit at the first signs of
trouble and all done for the profit it makes jails and indigent defense attorneys. Ohio is
destroying tens of thousands of families on the odd chance it may stop a domestic violence
situation from occurring. This goes against Blackstone’s ratio, a principle on which this
nation was founded, that is explained by John Adams, “The reason is, because it’s of more
importance to community, that innocence should be protected, than it is, that guilt should
be punished;...” Id., 4. This also has national security implications. It fits the description of
domestic terrorism but by offering financial incentives through procedures that encourages
police to commit these unconstitutional acts against society rather than by forcing them to
do so.
The State of Ohio creates additional prejudice by offering a way for officers getting
away with unconstitutional actions by prohibiting their victims from suing if they sign a
plea agreement as stated in O.R.C. 2743.48 (A)(2) which was the State of Ohio’s caprice in

15
1999 and proven to be as they have written it into law today. In Ohio, a person can only sue
for damages if they have been determined to be a “wrongfully convicted person” and to be
considered a “wrongfully convicted person” you cannot have plead guilty to the charge. This
creates prejudice against an innocent defendant in a court of law as it offers a temptation to
get an innocent person to sign a guilty plea to protect their friends rather than ignore that
conflict of interest and protect the innocent.
O.R.C. 2743.48 (A)(2) defines a wrongfully convicted person as,
“(2) The individual was found guilty of, but did not plead guilty to. the
particular charge or...”

So to protect an officer from any legal liability, and harm to their employment
record, who has committed an act under the district courts unconstitutional caprice, they
must find a way to manipulate a person into signing a plea. This turns officers of the court
against an innocent person in a court of law more so than a guilty one as the guilty pose no
threat to anyone’s career. This is the inherent prejudice I face as a defendant. And should
they sign an appeal waiver under some duress, as I did, then it will be a judge from that
same district that decides if that person will ever have an appeal.
Facts show that prejudice is inherent to imposing the procedural requirements of
Strickland v. Washington 466 U.S. 668, as required by Ohio App. R. 26 (B)(1), on a pro se
litigant seeking to reopen an appeal that was denied based on an appeal waiver. Those
potential 5th and 14th Amendments violations combined with the 6th Amendment
implications raised in Garza, 586 U.S.

(2019), presents a situation where the

“probability of actual bias on part of the decision maker is too high to be constitutionally
tolerable.” Withrow v. Larkin, 421 U.S. 35, 47, (1975), quoting In re Murchison, supra, at
136; cf. Turney v. Ohio, 273 U. S. 510, 532 (1927).

16
And a final issue is that permitting the use of an appeal waiver is that its
implementation is unfeasible. While this Court has ruled on the procedures in how to
handle waiver of appeals and that they require an Anders brief and review by the appellate
court we see that they are not following that precedent. The Chief Justice of the Supreme
Court for the State of Ohio also did not conduct a review of my case. The ruling in Anders
v. California, 386 U.S. 738, 744 (1967) was issued over 50 years ago and is still not being
applied properly today. That fact shows that allowing the use of a waiver of appeal denies
due process as it offers the possibility of injuring an innocent person. I consider it a
procedure that must be discarded as the potential to harm the innocent is too high to be
constitutionally tolerable.
In the ruling issued by the 4th District Court of Appeals we see that the appellate
court did not address any of the arguments raised in Garza v Idaho. (App A) The judge
defends counsel actions and behaves as though no Anders brief requirement even exists and
that Attorney McHenry did a great job in handling my case. But records show that
Attorney McHenry was not my attorney and failed to file an Anders brief on behalf. He has
never spoken to me about my appeal. (App E) Attorney Leonard was last attorney to
represent me in this matter. (App F) This was to gaslight me into thinking that I have no
right to an appeal. The appellate court issued this ruling when records show I was denied
effective assistance of counsel resulting in me being denied an appeal that records show I
had requested. Defense counsels failure to file an Anders brief shows deficient performance
of counsel on its face and had the appellate court examined the record for nonfrivolous
arguable merits and looked at the only court precedent I cited then we would have seen a
just result in allowing my appeal and assigning new counsel. No appellate review of my
court case for nonfrivolous arguable merits in the record occurred as no transcript has been

17
created. They simply refuse to do it. All while hiding their own deficient performance. The
ruling in Anders was issued 50 years ago and the ruling in Pension v. Ohio is a landmark
court case from the State of Ohio that explains in detail what role the appellate court must
play in dealing with waivers of appeal. The appellate court has no excuse as to why it
failed to apply the Anders requirement. The more workable rule would be to ban waivers of
appeal altogether. If no nonfrivolous arguable merits are found that must be stated in the
appeal. To deny an appeal is to deny due process.
I believe the financial incentives that encourage police officers to make false arrests
affects us all.. It destroys innocence in our communities as shown by the number of
overdose deaths in the State of Ohio. People who are victimized by the court system are
unable to free themselves from their false convictions and turn to drugs to end their
miserable existence as they cannot find work to support themselves. This Court must rule
on this case to prevent harm coming to our communities by these financial incentives that
create prejudice from the point of arrest to the appellate court. Allowing an attorney to file
a motion to withdraw an appeal offers the possibility that an innocent person may be
denied an appeal they are otherwise entitled to. As this does not require any guilty people
to be set free I fail to see a compelling government interest in denying me an appeal that I
was entitled to in the first place.
In the end what purpose does a waiver of appeal do besides hide attorney and police
misconduct? What legal argument can defense counsel make that supports waiving their
clients right to an appeal? If a person has no nonfrivolous merits on appeal then the
appellate court still has to conduct a review of the record for nonf5rivlous arguable merits
on the record. It does not reduce the workload on the appellate court. It is a procedure that
only protects corrupt cops and lawyers while offering the no benefit to the defendant or the

18
appellate court and if it offers the defendant no benefit in waiving their appeal then why is
it permitted?
While this case is resolved by applying the presumption of prejudice defined in
Garza v. Idaho, 586 U.S. 10 (2019) this Court must end the practice of permitting
independent waivers of appeal as they deny due process as shown in Section (2) of this
Petition. They are also unfeasible as appellate courts refuse to abide by these rulings due
to the inherent prejudice that exists in our court systems today. It is a procedure that
offers the possibility of injuring an innocent person which goes against Blackstone’s ratio.
A principle on which this nation was built.

CONCLUSION

For the reasons stated above, the petition for a writ of certiorari must be granted.

Respectfully Submitted,

David K. Horsley
500 Engle Dr. Apt 537,
McArthur, Ohio 45651
(740) 357-8041
Pro Se, Petitioner

